                                                     ~ SEC&
                                                   :)v~Q
                                                   W/ts~~
                                                   \      IIIIIII ~~
                                                        i\rlSTiJ"

                                      SOOAL             SECURITY
                                       Office of the Inspector General
MEMORANDUM

Date:    May 21,       2001                                                          Refer To:   ICN 31141-23-159
T        Larry G. Massanari
    0:   Acting Commissioner

           of Social     Security


         I nspector     General




Subject:Audit of the Social Security Administration's        Fiscal Year 1999 Annual
        Performance   Report (A-02-00-1 0039)



         The attached final report presents the results of our audit. Our objective, in response to
         a request from the Chairman of the Senate Committee on Governmental Affairs, was to
         assess the Fiscal Year 1999 Annual Performance Report as a document that describes
         in a meaningful way the accomplishments of the Social Security Administration.

         Please comment within 60 days from the date of this memorandum on corrective action
         taken or planned on each recommendation. If you wish to discuss the final report,
         please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
         General for Audit, at (410) 965-9700.




                                                                       James G. Huse, Jr.

         Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



             AUDIT OF THE

  SOCIAL SECURITY ADMINISTRATION’S

           FISCAL YEAR 1999

    ANNUAL PERFORMANCE REPORT


     May 2001     A-02-00-10039





 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE

The objective of the audit, initiated in response to an April 18, 2000 request from the
Chairman of the Senate Committee on Governmental Affairs, was to assess the Fiscal
Year (FY) 1999 Annual Performance Report (APR) as a document that describes in a
meaningful way the accomplishments of the Social Security Administration (SSA). An
initial response was provided to the Chairman on June 6, 2000. This report
incorporates that response, as well as information subsequently developed.

BACKGROUND

The Government Performance and Results Act (GPRA) of 1993 established a
framework through which Federal agencies are required to set goals, measure
performance, and report on the extent to which the goals were met. To accomplish this,
agencies are required to prepare 5-year strategic plans, annual performance plans
(APP), and annual performance reports (APR).

The strategic plan, which should include a comprehensive mission statement, identifies
general goals and objectives, describes how the agency intends to achieve those goals
and identifies critical external factors that could affect achievement of strategic goals
and objectives. The strategic plan is the starting point for setting annual goals. The
APP provides the direct link between the strategic goals and agency performance. The
APP identifies (1) the annual performance goals the agency will use to gauge progress
toward accomplishing its strategic goals and (2) performance measures to be used to
assess annual progress. An APR, due by March 31 of each year, compares an
agency’s performance with the goals established in its APP, evaluates its goals for the
current year in light of the prior year’s performance, and summarizes the results of
program evaluations completed.

SSA was a pilot agency that developed plans and reports prior to full implementation of
GPRA in March 2000. SSA submitted its first strategic plan under GPRA, “Keeping the
Promise,” in September 1997. SSA’s first APP, which defined performance indicators
and goals for FY 1999, was completed in February 1998. SSA released the FY 2000
and 2001 plans in February 1999 and February 2000, respectively. SSA began
reporting its accomplishments as part of its annual Accountability Report in FY 1995.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                      i
RESULTS OF REVIEW

SSA’s FY 1999 APR represents SSA’s strong commitment to meet the objectives of
GPRA. While the APR tracks performance against established goals, discusses
strategies to attain unmet goals, and generally complies with GPRA reporting
requirements, opportunities exist to provide a more meaningful assessment of SSA’s
performance. Further, the extent to which the APR provides meaningful performance
information depends upon the goals and measures established in the APP. In response
to recommendations made by the Office of the Inspector General (OIG) and the U.S.
General Accounting Office, SSA has taken action to improve its FY 2000 and 2001
APP. These actions, as well as additional issues raised in this report, should translate
into more informative future APRs.

CONCLUSION AND RECOMMENDATIONS
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
goals. SSA’s FY 1999 APR displays a firm commitment by SSA management to
comply with the intent of GPRA, and provide Congress and the public an objective
accounting of SSA performance. GPRA implementation will continue to be an
evolutionary process as agencies continue developing outcome-based measures, and
enhance the systems and processes that produce credible performance data. The
FY 1999 APR reflects certain weaknesses in this implementation that have
subsequently been addressed by SSA through strengthened annual performance plans.
Additionally, we recommend that SSA take the following actions to further the value of
future APRs:

•	 Provide a clear and informative discussion for each measure to allow a complete
   assessment of the extent performance met established goals.

•   Discuss the effect of unmet goals upon strategic goals.

•	 Ensure consistent reporting for all performance measures when complete data is not
   available.

•	 Discuss the results of SSA’s performance measure data validation and verification
   processes.

AGENCY COMMENTS
SSA generally agreed with all of our recommendations, indicating that it has, or will,
incorporate our suggested improvements. SSA did not fully agree with
recommendation 4, “discuss the results of SSA’s performance measure data validation
and verification processes” in the APR. SSA agreed that such discussion is useful
information to provide in the context of its overall annual performance planning and



Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                      ii
reporting processes. However, SSA believes that the APP is the principal GPRA
document to describe agency verification and validation procedures.

SSA agreed to provide more detail on accomplishments relating to research and
evaluation in future performance reports, and offered some clarification that provided
the type of detail we were recommending. The full text of SSA’s comments is included
in Appendix B.

OIG RESPONSE
We are pleased that SSA agreed with our recommendations, and has, or plans to,
implement most of our suggested improvements. As we reported, SSA noted
enhancements to an APP result in improvements in the related APR. SSA further notes
that improvements in its APP will facilitate a clearer link between planned and achieved
performance.

While we agree that the APP is the principal document to describe these procedures,
we also believe that the APR should generally disclose the results of these procedures.
This information would give readers of the APR some perspective on the reliability of
the performance information reported.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                    iii
                                                           Table of Contents

                                                                                                                Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 4


APR Discloses Many FY 1999 Goals Were Met and Opportunities

Exist for More Meaningful Disclosure ..................................................................... 4


    •    More Specific Information on Performance Needed .................................... 5


    •    Need for Overall Assessment of Performance Upon Strategic Goals.......... 6


    •	 Exclusion of Measures Creates a Less Than Comprehensive

       Assessment ................................................................................................. 7


    •    Data Limitations Are Not Discussed ............................................................ 8


    •	 Improvements in the Fiscal Year 2001 APP Should Result In More

       Meaningful Reporting in Future APR’s......................................................... 8


CONCLUSION AND RECOMMENDATIONS ...................................................... 10


APPENDICES

Appendix A - Status of FY 1999 Goals and Measures

Appendix B - Agency Comments

Appendix C - OIG Contacts and Staff Acknowledgement




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)
                                                                    Acronyms

 AGA                      Association of Government Accountants

 APP                      Annual Performance Plan

 APR                      Annual Performance Report

 FY                       Fiscal Year

 GAO                      General Accounting Office

 GPRA                     Government Performance and Results Act

 OIG                      Office of the Inspector General

 OMB                      Office of Management and Budget

 SSA                      Social Security Administration

 SSI                      Supplemental Security Income





Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)
                                                             Introduction

OBJECTIVE
The objective of the audit, initiated in response to an April 18, 2000, request from the
Chairman of the Senate Committee on Governmental Affairs was to assess the
Fiscal Year (FY) 1999 Annual Performance Report (APR) as a document that describes
in a meaningful way the accomplishments of the Social Security Administration (SSA).
An initial response was provided to the Chairman on June 6, 2000. This report
incorporates that response, as well as subsequent information developed.

Specifically, the request asked that the Office of the Inspector General (OIG) address:

   •   how the agency performed;

   •	 whether the performance goals and measures from the FY 1999 APR relate to
      the key outcomes of timely, accurate and useful service to the public, timely and
      accurate disability determinations, reduced disability benefits through return-to-
      work initiatives, timely program policy information to decisionmakers, and less
      fraud, waste and error in the Supplemental Security Income (SSI) program;

   •   the reliability of, and disclosure of limitations in, the performance data;

   •	 whether the cause for unmet goals was explained, along with a strategy to
      ensure future accomplishment;

   •   the extent to which an explanation was provided for goals that were changed;

   •	 if the goals and measures track performance toward the stated outcome in a
      meaningful way; and

   •   improvements made in the FY 2001 Annual Performance Plan (APP).

We provided an initial response on June 6, 2000, to the Chairman. As indicated in that
response, this report expands upon our initial answers and analyzes the extent to which
the APR could provide a more meaningful assessment of SSA’s performance.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                    1
BACKGROUND
The intent of the Government Performance and Results Act (GPRA) of 19931 is to
improve the performance of Government programs by having agencies clarify their
missions, establish goals and strategies for attaining them, measure performance, and
report progress in achieving established goals. The first APR required by GPRA was
due March 31, 2000, and reported on accomplishments for FY 1999.

GPRA specifies the content of the APR, and implementing guidance is provided by the
Office of Management and Budget (OMB)2. Basically, the APR contains two main parts:
(1) a report on actual performance achieved as compared with the performance goals
established in the APP, and (2) the plans and schedules to achieve any goals that were
not met. Specifically, the APR must:

    •	 compare actual performance with planned performance set out in the APP, with
       at least 4 previous years of performance presented;

    •	 describe why a projected level of performance was not met, and what steps will
       be taken to meet the goal in the future;

    •   contain an evaluation of performance for the current FY;

    •	 summarize the findings of any program evaluations completed during the FY,
       and how copies can be obtained;

    •	 include relevant budget information consistent with the obligation amounts shown
       in the Budget Appendix for the FY;

    •   identify any discontinued goals, while reporting performance;

    •	 report performance against only revised goals, and not both initial and revised;
       and

    •   disclose when information currently not available will be available.

In addition, comment may be made on the quality of the actual performance data where
such comment would help in understanding the accuracy or validity of the data.

Since 1995, SSA has reported performance data in its Annual Accountability Report
under OMB authority to consolidate various reporting requirements under this report.
SSA released its first APR as required by GPRA in November 1999, which displayed
SSA’s ability to meet the goals it established in the FY 1999 performance plan.

1
 Public Law No. 103-62.

2
 OMB Circular No. A-11, Part 2, “Preparation and Submission of Strategic Plans, Annual Performance

Plans, and Annual Program Performance Reports”, July 1999.



Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                               2
SCOPE AND METHODOLOGY

To meet our objectives, we reviewed SSA’s FY 1999 APR to assess its adherence to
GPRA requirements and implementing guidance from OMB, and reviewed reports by
the General Accounting Office (GAO), The Mercatus Center of George Mason
University, and the Association of Government Accountants (AGA) that analyzed SSA’s
FY 1999 APR.

The GAO reviewed the FY 1999 APR and FY 2001 APPs of 24 agencies at the request
of Senators Fred Thompson and Joseph I. Lieberman, Committee on Governmental
Affairs. The Mercatus Center also reviewed the FY 1999 APR of the same 24 agencies
as part of its on-going research on GPRA implementation. Beginning with the FY 1998
Accountability Reports, the AGA initiated the Certificate of Excellence in Accountability
Reporting by Federal Agencies Program, a voluntary program in which agencies submit
their Accountability Reports to AGA for review. We reviewed the results of these efforts
as they related to SSA.

Supported by our knowledge of SSA operations and other GPRA documents, we
analyzed the FY 1999 APR to assess the extent to which it provided a balanced and
informative presentation of SSA’s performance against the goals established in the
FY 1999 APP. Additionally, we reviewed the changes made to the FY 2000 and draft
FY 2001 APP to determine whether the related subsequent APR would be more
informative. Specific comments related to the FY 2001 APP are communicated in a
separate report3.

Our work was conducted at the OIG New York Field Office and SSA Headquarters in
Baltimore, Maryland during August and September 2000. The entity reviewed was the
Office of Strategic Management within the Office of the Commissioner. Our audit was
performed in accordance with generally accepted government auditing standards, as
applicable to a performance audit.




3
 “Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan”
(A-02-00-10038).


Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                            3
                                               Results of Review

SSA FY 1999 APR demonstrates a strong commitment to GPRA objectives. The APR
generally tracks performance in a meaningful way, and complies with GPRA reporting
requirements. Specifically, the APR presents SSA performance related to its strategic
goals, provides explanations for unmet goals and strategies to achieve them in the
future, as well as for changed goals. Nevertheless, we believe there are opportunities
to present a more comprehensive assessment of SSA’s performance, provide more
information to gauge performance on certain measures, and disclose known data
limitations. Further, the extent to which the APR provides meaningful performance
information with which to assess agency performance directly depends upon the quality
of the goals and measures established in the related APP. Prior reviews by the GAO4
and OIG identified actions to make the FY 1999 and 2000 APP more meaningful. In
response, SSA has taken action to improve its FY 2000 and 2001 APP. These actions,
as well as additional recommendations made by OIG in a recent report5, should
translate into more informative future APRs.

APR DISCLOSES MANY FY 1999 GOALS WERE MET AND
OPPORTUNITIES EXIST FOR MORE MEANINGFUL DISCLOSURE

SSA’s FY 1999 APR evidences SSA’s commitment to meet GPRA objectives, and
complies with applicable GPRA and OMB reporting requirements. SSA incorporated its
GPRA Performance Report in the FY 1999 Accountability Report, which was submitted
in November 1999. This was ahead of the required deadline of March 30, 2000. GPRA
performance is reported in both the Management’s Discussion and Analysis section of
SSA’s Annual Accountability Report, as well as in the separate GPRA report. The
former provides an informative overall assessment of performance, while the latter
contains a detailed accounting of performance for most measures. In both sections
performance is discussed under each of SSA’s five strategic goals. SSA’s use of
graphs and narratives created a generally informative and clear presentation.

As OIG reported in its letter to the Chairman dated June 6, 2000, the APR disclosed
that SSA achieved many of its goals, and has demonstrated a favorable trend in most of
them. SSA reports that it met or exceeded 60 percent of the indicators for which it had
a goal in FY 1999 or for which data was available to evaluate its measures (Refer to
Appendix A for a comparison of planned to actual performance). SSA further reported
that 73 percent of the measures represented an improvement over performance
achieved in the previous year.



4
  “The Results Act: Observations on SSA’s FY 1999 Performance Plan” (GAO/HEHS-98-178R), June

1998 and “Observations on the Social Security Administration’s Fiscal Year 1999 Performance Report

and FY 2001 Performance Plan” (GAO/HEHS-00126R), June 2000.

5
  “Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan”

(A-02-00-10038).



Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                                4
Concerning performance in the key outcomes, SSA achieved all or many of the goals
established relating to accurate, timely, and useful service to the public, as well as to
reducing fraud, waste, and error in the Supplemental Security Income (SSI) program.
SSA failed to meet goals for timely disability determinations, and did not have data
available to base an assessment of its achievement for accuracy of determinations goal.
Performance information relating to SSA’s research activity also does not provide a
basis to clearly determine the accuracy of how well the goal provides timely and useful
information to decisionmakers.

As required, the APR provides an explanation for why a goal was not met, when
applicable, along with plans to ensure future achievement. For the most part, SSA
clearly reports the goals and measures that were established, and the progress made
toward achieving them, we believe that additional opportunities exist to provide a more
meaningful assessment of performance. These include: (1) more specific performance
information about what was planned and actually achieved for certain measures, (2) an
overall assessment of how performance achieved furthers each of the strategic goals,
(3) certain measures that are excluded from assessment, and (4) a discussion of known
data limitations would permit an enhanced assessment of performance. These
opportunities are discussed in the remainder of this report.

More Specific Information on Performance Needed

SSA generally provides informative data to permit the reader to make an assessment of
performance that did not meet individual goals, and to evaluate the actions planned to
ensure accomplishment of the goals in the future. For instance, SSA reports failure to
achieve posting 98 percent of earnings to individuals’ records by September 30,
provides perspective on this performance by explaining that the goal would have been
achieved had the records from one filer been submitted earlier, and describes plans to
ensure more timely filings in the future. Similarly, SSA explains that the goal of the
number of SSNs processed was not met because the expected workload did not
materialize, and not because SSA’s performance was inadequate.

Performance information for other measures was not as clear or informative. Additional
information could have been provided to allow a better assessment of what was actually
accomplished. For instance:

•	 The goal to implement the “Ticket to Independence Program” was considered met,
   but the justification was rather vague and left many questions. Achieving the goal
   was actually dependent upon passage of the enabling legislation, which had not yet
   happened. However, SSA states that, in anticipation of the legislation, it has begun
   developing implementation strategies, and describes what the legislation seeks to
   do. It is unclear what strategies have begun, and how implementation will affect the
   agency. While achievement of the goal is out of the control of SSA, it is
   nevertheless not appropriate to have considered the goal as met;




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                   5
•	 The goal to complete testing of a prototype regarding the capacity for persons with
   disabilities to return to work has its accomplishment beyond FY 1999. SSA cites
   progress to date, however, it is not clear how the progress described will assist
   accomplishment of the goal;

•	 The progress described for the goal to complete all currently planned return-to-work
   research and analysis, also to be accomplished beyond FY 1999, does not give a
   clear indication of how it helps the ultimate attainment of the goal; and

•	 The goal to conduct planned research and policy evaluation was listed as met,
   however, one cannot independently assess performance because the APR only
   discusses what was completed, and does not disclose what was planned. Further, it
   is unclear how SSA used the research completed to devise proposals to strengthen
   its programs.

Need for Overall Assessment of Performance
upon Strategic Goals

While SSA reports that 60 percent of its goals were met or exceeded, neither an
assessment of problem areas nor the effect of both met and unmet goals upon the
applicable strategic goals is clear. For instance, only one of the seven claims
processing goals was met. While explanations are provided as to why performance did
not meet the goals, the impact of this upon world-class service and customer
satisfaction is not addressed. A similar lack of assessment exists for areas in which
related goals were significantly surpassed. For instance, all five goals related to debt
collection and anti-fraud activities were met, however, the effect of this was not
highlighted in terms of the strategic goal for zero-fraud tolerance.

The Mercatus Center of George Mason University noted a failure to identify how
achieved goals related to success in each of the five strategic goals. The Mercatus
Center evaluated the APRs of 24 agencies6 in terms of whether (1) accomplishments
were reported in a transparent fashion, (2) tangible public benefits produced by the
agency were highlighted, and (3) evidence of forward-looking leadership that uses
performance information to devise strategies for improvement was present. SSA’s APR
was ranked 8 out of the 24 agencies reviewed. However, SSA’s score was 55 percent,
receiving a total score of 33 out of a possible 60 (see following Table).




6
    “Performance Report Scorecard: Which Federal Agencies Inform the Public?”, May 3, 2000.


Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                             6
                         Mercatus Scoring of SSA’s FY 1999 APR

      Criteria             Total Possible            SSA Score         Average Score
     Evaluated                 Score                                    of All APRs
Transparency                     20                       14                11.0
Leadership                       20                       12                10.4
Public benefit                   20                        7                 9.8
Overall                          60                       33                31.2

Exclusion of Measures Creates a Less Than
Comprehensive Assessment

In reporting that 60 percent of its goals were met or exceeded, SSA excludes 13
measures that did not have a FY 1999 goal and an additional 5 for which information
was unavailable to measure success. While this is disclosed in a footnote, presentation
of all indicators would more easily provide an overall assessment of performance. For
instance, SSA could have reported that 34 (46 percent) goals were met, 21 (29 percent)
were not met, 5 (7 percent) did not have data with which to measure, and 13
(18 percent) were prior year’s goals. Of the latter group of 13, 6 were indicators whose
goals were to be achieved in a subsequent year and 7 were reportedly met in a prior
year.

SSA notes that the seven measures relating to a prior year are addressed separately
because they contained goals only for FY 1998 and were reported upon in the FY 1998
GPRA Report. However, assessing the status of these goals is not always clear. For
instance, one goal was to complete analysis of the operational implications of major
proposals by the bi-partisan Advisory Council for long-term financing. While this was
excluded on the basis that there was only a goal for FY 1998, SSA reports that the
analysis is ongoing. Consequently, it is uncertain whether this is a completed goal or
actually an unmet goal.

The reader is referred to the Management Discussion and Analysis section from an
Appendix to the GPRA report to determine the status of the goal to complete a
comprehensive action plan to improve management of the SSI program, an area rated
as a major challenge by the OIG. However, while that section generally refers to
planned actions, it fails to succinctly address how the management of the program
would be improved.

Further, SSA reported inconsistently on measures for which recent data was not
available. SSA excludes five goals in measuring overall performance because it
reported that data was unavailable. For instance, SSA disclosed that SSI dollar
accuracy of Old-Age and Survivor’s Insurance (OASI) benefits is not counted because
the statistics are not available until after the close of the FY. This disclosure follows
OMB guidance that recognizes data for all performance measures may not be available
until after the close of the FY, and requires disclosure of such. However, data for


Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                    7
another two goals was only partially available, yet these were included in the overall
assessment. For instance, 800-number payment and service accuracy measures are
included despite the fact that the data measured represents only 6 months of the FY.

Data Limitations Are Not Discussed

OMB guidance suggests that the APR include comments on the quality of performance
data and actions taken to ensure the verification and validity of the data. SSA
discusses verification and validation procedures and selected program evaluations
conducted, but does not always disclose the results of these efforts.

SSA describes the financial and internal control audit conducted by the independent
public accountants, the OIG approach to reviewing performance measures, and its
processes for conducting management and accounting control reviews, program
evaluations, and data integrity information. However, little or no results of these
activities and their effect upon the performance measures, either positively or
negatively, are provided. For instance, deficiencies reported in the financial and control
audit that could hamper SSA’s ability to produce credible data are not noted. No
mention is made that the Management Information Integrity Monitoring Team,
established to resolve allegations of inappropriate management information, detected
few problems. This type of information would give the reader some perspective on the
results of SSA’s data validation and verification efforts. The Mercatus Center report
also concluded that SSA’s APR contained little discussion of external checks on the
internal data used to measure performance.

The OIG has a 3-year audit effort through FY 2001 to determine the reliability of all
performance measures. The APR discloses some of the weaknesses in the data or the
method of measurement identified by the OIG. For instance, the APR notes that the
indicator for annual earnings postings excludes earnings from self-employment.
However, other limitations are not disclosed, such as the fact that the indicator for the
number of SSNs issued accurately does not include about 20 percent of SSNs issued.
Other limitations have been reported by the OIG subsequent to the release of the APR,
and SSA has agreed to disclose them in future APRs. We noted that such disclosures
have been made in the FY 2001 APP.

Improvements in the FY 2001 APP Should Result In More
Meaningful Reporting In Future APRs

The APR’s ability to convey an informative picture of SSA’s performance in meeting its
goals and mission is a product of the quality of the measures established in the APP.
Implementation of GPRA is an evolving process, and both the GAO and OIG have
recommended actions to increase the usefulness of SSA’s APPs to decisionmakers.
SSA agreed in principle with these recommendations and has already taken action to
address some of them in its FY 2000 and 2001 APP. For instance, GAO concluded that
SSA established more useful goals and measures in the FY 2001 APP relating to




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                     8
strengthening the public’s understanding of Social Security programs and in measuring
decisional accuracy at the hearings level.

In the review of the FY 2000 APP, OIG recommended that SSA: (1) have performance
measures for all management challenges; (2) establish measures that better reflect
performance; and 3) identify resources with planned performance, and (4) identify
known data limitations and weaknesses. While SSA has revised its FY 2001 APP to
respond to these recommendations, we believe that additional actions are necessary to
develop an even more meaningful APP.

To address the first issue, SSA added an Appendix to the FY 2001 APP that details how
SSA will track and measure performance for major management challenges. While this
is a positive step, we believe that specific performance goals should be established for
those management challenges that are measurable. In response to the second issue,
SSA made some changes but we believe that there are still opportunities to refine
selected measurements to better reflect performance, such as separately measuring
processing times for SSI disability claims and Old-Age and Survivors Disability
Insurance disability claims. SSA indicated that future plans would evolve to provide
more accurate measures of performance in various areas. For instance, SSA reported
that it would continue to refine its measurement of disability processing times. SSA
added more detail about resources requested in FY 2001 to support various goals, and
advised that this implementation will continue to evolve in the FY 2002 APP and
beyond. The FY 2001 APP reflects correction, or disclosure, of specific weaknesses
identified to date by OIG. However, the GAO reported that the APP does not discuss
the potential effect from internal control deficiencies in SSA’s information systems.

The establishment of more outcome oriented measures that focus on quality and
timeliness in the FY 2001 APP should translate into more informative and accountable
performance reporting in the future FY 2001 APR. OIG had discussed with SSA
specific areas in which this could be accomplished, and the draft revised FY 2001 APP
responds in part to OIG’s observations. Additional opportunities to enhance the
usefulness of the FY 2001 and future APPs are discussed in a separate OIG report,
Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance
Plan (A-02-00-10038).




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                  9
                                             Conclusion and
                                           Recommendations
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
goals. SSA’s FY 1999 APR displays a firm commitment by SSA management to
comply with the intent of GPRA, and provide Congress and the public an objective
accounting of SSA performance. GPRA implementation will continue to be an
evolutionary process as agencies continue developing outcome-based measures, and
enhance the systems and processes that produce credible performance data. Since the
APR reflects the goals and measures set in the related FY 1999 APP, actions taken by
SSA to improve the usefulness of its FY 2000 and 2001 APP, and those recommended
by OIG for future APPs, should result in more informative APR’s. To further improve the
usefulness of future APRs, we recommend that SSA:

1. 	 Provide a clear and informative discussion for each measure to allow a complete
     assessment as to the extent performance met established goals;

2. Discuss the effect of unmet annual goals upon strategic goals;

3. 	 Ensure consistent reporting for all performance measures when complete data is not
     available; and

4. 	 Include a discussion of the results of SSA’s performance measure data validation
     and verification processes.

AGENCY COMMENTS
SSA generally agreed with all of our recommendations, indicating that it has, or will,
incorporate them in future APR’s. SSA did not fully agree with recommendation 4
“discuss the results of SSA’s performance measure data validation and verification
processes” in the APR. SSA agreed that such discussion is useful information to
provide in the context of its overall annual performance planning and reporting
processes. However, SSA believes that the APP is the principal GPRA document to
describe agency verification and validation procedures. The full text of SSA’s
comments is included in Appendix B.

OIG RESPONSE
We are pleased that SSA agreed with our recommendations, and has, or plans to,
implement most of them. As we reported, SSA noted enhancements to an APP result in
improvements in the related APR. SSA further notes that improvements in its APP will
facilitate a clearer linkage between planned and achieved performance.



Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                    10
While we agree that the APP is the principal document to describe these procedures,
we also believe that the APR should generally disclose the results of these procedures.
This information would give readers of the APR some perspective on the reliability of
the performance information reported.

SSA agreed to provide more detail on accomplishments relating to research and
evaluation in future performance reports, and offered some clarification that actually
provided the type of detail we were recommending.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                        11
                                       Appendices





Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)
                                                                                       Appendix A

Status of FY 1999 Goals and Measures
Strategic Goal: To promote valued, strong and                     2 out of 2 goals achieved (3 are not FY
responsive social security programs and conduct                   1999 goals)
effective policy development, research and program
evaluation
                          INDICATOR*                                   GOAL                  ACTUAL
1      Implement the “Ticket to Independence”                     Implementation        Achieved
       Program contingent upon enactment of                       begun
       legislation in FY 1998
2      Conduct the Disability Evaluation Study                    Study fielded by      Not a FY 1999 goal
                                                                  FY 2000; final
                                                                  report issued by
                                                                  FY 2001
3      Complete testing of a prototype on an improved             Goal set to be        Not a FY 1999 goal
       method for making sound decisions regarding                achieved in
       the capacity for persons with disabilities to work         FY ‘01
       (by FY 2001)
4      Complete all currently planned return-to-work              Goal set to be        Not a FY 1999 goal
       research and analysis (by FY 2002)                         achieved in
                                                                  FY ‘02
5      Conduct planned research and policy evaluation             Research and          Achieved
       necessary to assist the Administration and                 evaluation
       Congress in devising proposals to strengthen               continued
       and enhance the Social Security program




*SSA’s FY 1999 APR disclosed 59 indicators because it reported 7 indicators that each had 2 separate
measures.


Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                               A-1
Strategic Goal: To deliver customer-responsive, world-class 8 out of 17 goals achieved (3 are
service                                                     not FY 1999 goals)
                       INDICATOR                              GOAL              ACTUAL
6      Percent of callers who successfully access the 800-number within        95%            95.8% - Achieved
       5 minutes of their first call
7      Percent of callers who get through to the 800-number on their first     90%            92.9% - Achieved
       attempt
8      Percent of public with an appointment waiting 10 minutes or less        85%            84.6% - Not achieved

9      Percent of public without an appointment waiting 30 minutes or          70%            71.6% - Achieved
       less
10     Complete development of SSA standards for client authentication         Standards      SSA found developing
       and establish a leadership role in governmentwide authentication        developed;     authentication standards
       policy                                                                  leadership     as planned was not
                                                                               role           feasible, and changed
                                                                               established    strategy. – Not achieved
11     Take retirement or survivor claims immediately over the telephone,      Accomplish     Not a FY 1999 goal
       or in person, as long as applicant has all the information needed       by or before
                                                                               September
                                                                               2000
12     Provide overnight electronic Social Security number verification for    Accomplish     Not a FY 1999 goal
       employers                                                               by or before
                                                                               September
                                                                               2000
13     Give employers the option to transmit wage reports to SSA               Accomplish     Not a FY 1999 goal
       electronically using a personal computer or high-speed data             by or before
       transmission lines                                                      September
                                                                               2000
14     Initial disability claims processing times (days)                       100            105 – Not achieved
15     Percent of DI claims decided within 6 months after onset or within      53%            49.2% - Not achieved
       60 days after effective filing date, whichever is later
16     Percent of SSI disability claims decided within 60 days of filing       26%            22.3% - Not achieved
17     Hearings processing time (days) September                               274            317 – Not achieved
18     Hearings processing time (days) Annual average                          313            316 – Not achieved
19     Percent of hearings decisions made and Notices sent within 120          15%            14.2% - Not achieved
       days of filing
19     Percent of OASI claims processed by the time the first regular          83%            84.3% - Achieved
       payment is due or within 14 days from effective filing date, if later
21     Percent of initial SSI Aged claims processed within 14 days of          66%            63.5% - Not achieved
       filing
22     Percent of original and replacement Social Security cards issued        97%            99% - Achieved
       within 5 days of receiving all necessary documentation
23     Percent of public rating SSA service as “good” or “very good”           87%            88% - Achieved
24     Percent of public “satisfied” or “very satisfied” with the              90%            90% - Achieved
       courteousness of SSA staff
25     Percent of public who are “satisfied” or “very satisfied” with the      82%            86% - Achieved
       clarity of SSA mail




     Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                                   A-2
Strategic Goal: To make SSA program management the                 15 out of 23 goals achieved (data not
best in business, with zero tolerance for fraud and abuse          available for 5 goals)
                             INDICATOR                               GOAL                 ACTUAL
26         Number of initial disability claims processed           2,090,000     2,013,089 – Not achieved
27         Initial disability claims pending                       408,000       457,823 – Not achieved
28         Number of hearings processed                            650,000       596,999 – Not achieved
29         Hearings pending                                        288,000       311,958 – Not achieved
30         OASI claims processed                                   3,142,600     3,076,937 – Not achieved
31         SSI Aged claims processed                               145,500       148,382 - Achieved
32         SSI non-disability redeterminations                     2,091,600     2,122,279 - Achieved
33         Representative payee actions                            6,948,400     7,644,563 - Achieved
34         SSN requests processed                                  16,600,000    16,322,588 – Not achieved
35         800-number telephone calls handled                      55,500,000    58,800,000 - Achieved
35         Annual earnings items                                   254,500,000   249,868,000 - Not achieved
37         Percent of earnings posted to individuals’ records by   98%           95.3 est. – Data not available
           September 30
38         Percent of earnings posted correctly                    99%           99% - Achieved
39         Dollar accuracy of OASI payment outlays:                99.8%         Data not available
           (a) Percent without overpayments
40         (b) Percent without underpayments                       99.8%         Data not available
41         DDS decisional accuracy                                 97%           Data not available
42         Percent of SSNs issued accurately                       97%           Data not available
43         Percent of 800-number calls handled accurately          95%           95.4% - Achieved
           (a) Payment accuracy
44         (b) Service accuracy                                    90%           81% - Not achieved

45         Number of periodic CDRs processed                       1,637,000     1,703,414 - Achieved
46         Percent of multi-year CDR plan completed                44%           45.9% - Achieved
47         Annual increase in debt collected                       7%            11.5% - Achieved
48         Overpayment dollars collected (in millions):            $1,180.60     $1,191.50 - Achieved
           (a) OASI dollars collected
49         (b) SSI dollars collected                               $576.90       $640.00 – Achieved
50         Number of allegations that will be opened as            5,700         9,238 – Achieved
           investigations
51         Dollar amounts reported from                            $17.00        $45.00 - Achieved
           investigative activities (in millions):
           (a) OASDI dollars reported
52         (b) SSI dollars reported                                $18.00        $140.00 - Achieved
53         Number of criminal convictions                          1,800         3,139 – Achieved




     Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                           A-3
Strategic Goal: To be an employer that values
and invests in each employee                              8 out of 10 goals achieved

                        INDICATOR                                   GOAL              ACTUAL
54    Percent of front-line employees with                100%                   93% - Not achieved
      intelligent workstations connected to a local
      area network
55    Interactive Video Training/                         82%                    87% - Achieved
      Interactive Distance Learning (IVT/IDL):
      Percent of front-line employees with access
      to IVT/IDL
56    Implement formal management development             Management             Implemented -
      programs                                            intern program         Achieved
                                                          implemented
57    Percent of managerial staff participating in        60%                    60% - Achieved
      management/leadership development
      experiences
58    Complete Agency plan for transitioning to the       Curriculum for         The core
      workforce of the future                             non-supervisory        competencies and
                                                          employees based        reinforcing core
                                                          on identification of   curriculum were
                                                          new skill sets         identified and
                                                          required in the        developed - Not
                                                          future                 achieved
                                                          implemented

59    Percent of employees reporting they are             70%                    74% - Achieved
      satisfied with the level of security in their
      facility
60    Percent of environmental indoor air quality         20%                    37% - Achieved
      Surveys completed and percent of corrective
      actions taken when called for:
      (a) Facilities surveyed
61    (b) Corrective actions taken                        75%                    76% - Achieved
62    Number of facilities having water quality           600                    662 – Achieved
      testing and percent of corrective actions
      taken when called for:
      (a) Facilities tested
63    (b) Corrective actions taken                        100%                   100% - Achieved




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                       A-4
Strategic Goal: To strengthen public                      1 out of 2 goals achieved (data not
understanding of the social security programs             available for 1 goal)

                       INDICATOR                                    GOAL           ACTUAL
64   Percent of individuals issued Social Security        100%                 100% - Achieved
     Statements (formerly PEBES) as required by
     law
65   Number of Social Security Statements issued          36,000,000           30,131,400 - Not
     upon request and automatically by SSA                                     Achieved
66   Percent of public who perceive they are “very        59%                  Data not available
     well” informed or “fairly well” informed about
     Social Security




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                      A-5
Appendix to APR: The performance indicators listed           Status: Some of the following
below are found in the FY 1999 APP, but contained            indicators have been completed.
performance goals for FY 1998 only. To provide a
complete picture of all performance indicators found in
the FY 1999 APP, SSA has provided their current
status.
67 Increase the opportunities that disabled                  The contract is operational and
     beneficiaries have to receive vocational                the contractor is collecting data
     rehabilitation services by contracting with             for evaluation purposes.
     alternate providers
68 Establish an on-going retirement policy research          External research regarding SSA
     consortium                                              programs and policies is
                                                             stimulated through the
                                                             consortium.
69   Expand income modeling capabilities to include          Checked contractor-supplied data
     all sources of retirement income                        and developing computer
                                                             programs for processing policy
                                                             analyses.
70   Complete analysis of the operational implications       Analysis is ongoing.
     of major proposals by the Advisory Council for
     long-term financing
71   Increase the customer base for SSA Online and           The overall Internet services
     bring a modified online Social Security Statement       strategy is currently under
     (formerly Personal Earnings Benefit Estimate            executive review with the Agency.
     Statement) response to full-scale operation
72   Complete a business case analysis for future            The Electronic Service Delivery
     online services and bring up two new online             Business Case was completed
     services                                                and presented to SSA’s Chief
                                                             Information officer Core Team in
                                                             January 1998.
73   Complete comprehensive action plan to improve           The Agency is moving
     management of the SSI program                           aggressively to implement its plan
                                                             to strengthen management of the
                                                             SSI program.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                       A-6
                                                                    Appendix B


Agency Comments





Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)
                                                                                       .J-\. SF.C"&
                                                                                      ~          :-e..
                                                                                     ~~     ~1
                                                                                          USA

                                                                                     \..~}!.#

                                                                SOCIAL                    SECURI1Y


MEMORANDUM


Date:     April        16,2001                                                                                             ReferTo:

To:       James       G.   Ruse,     Jr.

          Inspector        General              ;J                               .

                                                                  11
From:     Acting
          Larry       G.
                       Commissio"nJ1;/(
                          Massanari             /i    L /!!
                                                      So'cla{      Security




Subject   The Office of the Inspector General Draft Report, "Review of the Social Security
          Administration's                Fis.~1     Year       1999    Annual        Performance        Report"   (A-02-00-1   0039)--
                                            ,. ,.
          INFORMATION                       .



          Our comments on this report are attached. If your staff have any questions,they may contact
          Mark Welch on extension 50374.

          Attachment:
          SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT REPORT,
“REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S FISCAL YEAR 1999 ANNUAL
PERFORMANCE REPORT” (A-02-00-10039)

Thank you for the opportunity to review and provide comments on this draft report. We
appreciate that the report notes that our Annual Performance Report (APR) for fiscal year (FY)
1999 represents the strong commitment of the Social Security Administration (SSA) to meet the
objectives of the Government Performance and Results Act (GPRA) of 1993. We believe that
our APR for FY 2000 is much improved relative to the FY 1999 APR, especially with regard to
explaining how performance indicators relate to goals. Much of this improvement is due to
corresponding enhancements in SSA’s FY 2000 Annual Performance Plan (APP).

Recommendation 1

Provide a clear and informative discussion for each measure to allow a complete assessment as
to the extent performance met established goals.

Comment

We agree. In future APRs, we will provide clear demonstration that a goal was met. For interim
measures, we will clearly indicate how progress will assist in the accomplishment of a goal.
Improvements in the APP will facilitate a clearer linkage between planned and achieved
performance.

Recommendation 2

Discuss the effect of unmet annual goals upon strategic goals.

Comment

We agree and will incorporate this suggestion into future APRs. With regard to annual goals
that are met or exceeded, discussion in the APR will generally indicate that such goal attainment
is moving the Agency in the direction of achieving the strategic goal.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                           B-1
Recommendation 3

Ensure consistent reporting for all performance measures when complete data is not available.

Comment

We agree and have incorporated this recommendation into the FY 2000 APR.

Recommendation 4

Include a discussion of the results of SSA’s performance measure data validation and
verification processes.

Comment

We agree that this is useful information to provide in the context of our overall annual
performance planning and reporting processes. While the APR provides a brief summary of our
verification and validation processes, the reader is referred to a more detailed explanation in the
companion APP. The APP is the principal GPRA document for describing how an agency
verifies and validates performance data it collects and reports.

Other Matters

The draft report (pages 5 and 6) discusses four FY 1999 goals under our strategic goal to
promote valued, strong and responsive Social Security programs and conduct effective policy
development, research and program evaluation. In general, OIG suggests that “more
information could have been provided to allow a better assessment of what was actually
accomplished.” Although we believe that the information provided was generally sufficient, we
will provide more detail on accomplishments relating to research and evaluation in future
performance reports.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                              B-2
About the four FY 1999 goals discussed in this section of the OIG draft report, we offer the
following clarification.

Implementing the “Ticket to Independence” Program

SSA’s stated goal was to implement the program contingent upon enactment of legislation in FY

1998. SSA reported this goal as having been accomplished because the Agency had done

work to develop strategies for implementation

in anticipation of enactment of the legislation. Alternatively, SSA could have reported this goal

as

being inapplicable in FY 1999 because the legislation

had not been enacted.


Since enactment of this legislation, we have enhanced our annual performance plans for goals

and measures related to progress with implementation of the Ticket to Work and Self-

Sufficiency program and the success of work incentives in general. We will continue to pursue

improvements to measures of work activity by our disability beneficiaries and to carry out the

implementation of the Ticket to Work program, according to the established timeframes included

in the implementation plan.


Complete testing a prototype on the capacity of persons with disabilities to return-to-work.


The OIG draft report states that it is not clear how the progress described will assist in

accomplishment of the goal. This project, part of the State Partnership Initiative (SPI), is

intended to create and test software that would allow a benefit counselor to tell a beneficiary

how a change in earnings would affect his or her Social Security benefits, food stamps, housing

subsidies and State-provided benefits. If feasible, this software would enable persons with

disabilities to make more informed decisions about their work and earnings. The

accomplishment in 1999 was to award a contract to study the feasibility of using software for this

purpose.





Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                               B-3
Complete all currently planned return-to-work research and analysis

The OIG draft report indicates that the discussion of progess does not give a clear indication of
how it helps the ultimate attainment of the goal. This goal refers to the SPI, which involves
cooperative agreements with 12 States to develop innovative and integrated
team-based projects to assist adults with disabilities to reenter the work force and decrease
dependence on benefits. Under the SPI, beneficiaries will be enrolled in these projects, data on
outcomes will be collected and the results will be evaluated. The accomplishments in 1999
covered enrolling participants, setting up the data collection and evaluation systems,
coordinating the activities of the project and awarding a contract to evaluate this approach to
return-to-work.


Conduct planned research and policy evaluation

The OIG draft report indicates that: 1) The APR discusses only what was completed and not
what was planned; and 2) it is unclear how SSA used the completed research to devise
proposals to strengthen its programs. With respect to the first comment, we agree that this goal
was not specified sufficiently clearly and have made the goal more precise in subsequent
performance plans. With respect to the second comment, we believe that the APR addressed
this concern. The APR noted that the results of model-based analyses were provided to the
White House, other Federal agencies and members of Congress. These analyses were used
by the Administration and the Congress in developing legislative options and bills introduced in
the Congress. Other analyses were used heavily in the following fiscal year to shape the
legislation on eliminating the earnings test for persons aged 65-69.




Review of SSA’s FY 1999 Annual Performance Report (A-02-00-10039)                            B-4
                                                                                 Appendix C

OIG Contacts and Staff Acknowledgements
OIG Contacts

   Frederick Nordhoff, Director, Financial Management and Performance Monitoring Audit
   Division, (410) 966-6676

   Timothy Nee, Deputy Director, Performance Monitoring, (212) 264-5295

OIG Acknowledgments

In addition to those named above:

   John Harrison, Senior Auditor

   Annette DeRito, Program Analyst

For additional copies of this report, please contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-5998. Refer to Common Identification Number A-02-00-10039.




Review of SSA’s 1999 Annual Performance Report (A-02-00-10039)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                      Overview of the Office of the Inspector General
                                          Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief
Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present the
Agency’s financial position, results of operations, and cash flow. Performance audits review the
economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                  Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and
Results Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG’s public
affairs, media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                          Office of the Counsel to the Inspector General

The Office of the Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and investigative
material produced by the OIG. The Counsel’s office also administers the civil monetary penalty
program.
